     Department of Homeland Security





     FEMA Public Assistance Grant Funds Awarded to St. 

                  Charles Parish, Louisiana 





DD-12-06                                      February 2012

                                                                              Office ofInspector General

                                                                              (l,S. Department of Homeland Security
                                                                              Washington, DC 20528




                                                                • • Homeland
                                                                ~g~ Security
                                                       FEB ? 2 ;012

MEMORANDUM FOR:                         Tony Russell



FROM
                                C>· ···'ri~(~r1&rir-1
                                        Regional Administrator,
                                        Fe~r~~I)l~r~§Man~ment Agency
                                                                        R~gion   VI



                                        Assi~~;nspector G~neral
                                        Office of Emergency Management Oversight

SUBJECT:                                FEMA Public Assistance Grant Funds Awarded to
                                        Sf. Charles Parish, Louisiana
                                        FEMA Disaster Number 1603-DR-LA
                                        Audit Report DD-12-06

We audited public assistance (PA) grant funds awarded to St. Charles Parish, Louisiana (Parish)
(Public Assistance Identification Number 089-99089-00). Our audit objective was to determine
whether the Parish accounted for and expended Federal Emergency Management Agency (FEMA)
grant funds according to federal regulations and FEMA guidelines.

The Governor's Office ofI-Iomeland Security and Emergency Preparedness (GORSEP), a FEMA
grantee, awarded the Parish $8.9 million for damages resulting from Hurricane Katrina, which
occurred on August 29, 2005. The award provided 100% funding for 11 large and 54 small
projects,l The audit covered the period August 29,2005, through June 23, 2011, the cutoff date of
our audit, and included a detailed review of 15 projects totaling $8.3 million, or 94% of the total
award. 2 We also performed a limited review of all remaining projects totaling $578,715 (see
Exhibit A, Audited and Questioned Costs).

Because the Parish did not account for costs on a project-by-project basis as required (see
finding A), we could not always determine whether the Parish's expenditures were for eligible work
authorized on the projects or whether the Parish had adequate support for all projects. As a result,
our audit scope was limited, and other matters might have come to our attention if the Parish had
properly accounted for costs. As of the cutoff date of our audit, the Parish had claimed $8.8 million
in expenses. Table 1 shows the gross and net awards before and after insurance reductions for all
projects and for our audit scope.


I   Federal regulations in effect at the time of the disaster set the large project threshold at $55,500.
2   We audited the gross amount of$9.7 million awarded before reductions for insurance.
                              Table 1 Gross and Net Award Amounts

                               Gross Award        Insurance         Net Award
                                 Amount          Reductions          Amount
          Full Scope Audit     $ 9,720,900      $(1,382,394)        $8,338,506
          Limited Review       $ 607,680         $ (28,965)         $ 578,715
             All Projects       $10,328,580     $(1,411,359)        $8,917,221

We conducted this performance audit pursuant to the Inspector General Act of 1978, as amended,
and according to generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based upon our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based upon our audit objective. We
conducted this audit according to the statutes, regulations, and FEMA policies and guidelines in
effect at the time of the disaster.

We interviewed FEMA, GOHSEP, and Parish officials; reviewed all available project costs; and
performed other procedures considered necessary to accomplish our objective. We did not assess
the adequacy of the Parish’s internal controls applicable to grant activities because it was not
necessary to accomplish our audit objective. We did, however, gain an understanding of the Parish’s
methods of accounting for disaster-related costs and its procurement policies and procedures.


                                       RESULTS OF AUDIT

The Parish did not account for FEMA grant funds on a project-by-project basis as required by
federal regulations. As a result, the Parish’s claim included unsupported and ineligible costs.
Further, although the Parish generally followed federal procurement standards for contracting, it did
not include required provisions in all its contracts; did not perform a cost or price analysis on all
procurements; and did not take sufficient steps to ensure the use of small businesses, minority-
owned firms, women’s business enterprises, and labor surplus area firms for its contract work. We
question the following $8,917,221 in unsupported and ineligible costs:

   •	 Finding A: $8,155,230 of unsupported costs because the Parish could not provide an
      accurate accounting of expenditures ($8,608,509 less $453,279 also questioned in other
      findings) (see Exhibits A, Schedule of Audited and Questioned Costs, and B, Costs
      Questioned Under Multiple Criteria);
   •	 Finding B: $357,395 of duplicate costs;
   •	 Finding C: $308,712 of work not eligible under the PA grant program;
   •	 Finding D: $51,758 of work that the Parish did not complete;
   •	 Finding E: $28,474 of costs to be reduced by insurance proceeds; and
   •	 Finding F: $15,652 for the cost of work outside the project’s scope of work.




                                                  2

In addition, the Parish did not submit documentation to GOHSEP for all expenses incurred, and
FEMA should review the scopes of work for all the Parish’s projects and deobligate those projects
with duplicate scopes of work (finding A).

Finding A: Project Accounting

The Parish did not account for grant funds on a project-by-project basis, as required. Specifically,
the Parish could not provide a complete and reliable listing of costs for the $8.2 million it claimed
for Project 23, and the Parish submitted duplicate costs for more than one project. The Parish’s
listing of costs for Project 23 did not reconcile to GOHSEP’s records, and the Parish was unable to
identify the specific documents that it had submitted to GOHSEP. Although the Parish did not
account for the costs on a project-by-project basis, we did review documentation that it submitted to
GOHSEP to support its claim. As a result of the improper project accounting, the Parish’s claim
included duplicate invoices for several projects (see Finding B, Duplicate Costs); in addition, it did
not submit costs for all eligible work. Had the Parish accounted for costs as required, other matters
relating to eligibility and adequate documentation might have come to our attention.

In accounting for its projects, the Parish had three difficulties. First, the projects included scopes of
work that were too broad, which resulted in the Parish charging the same work to multiple projects.
For example, the scope of work for Project 5786 was “to deal with the emergency problems created
by the roof leaking.” This duplicates part of Project 23’s broad scope of work, which states, “The
applicant undertook extensive response actions...as well as to avoid and/or alleviate hazards
threatening significant damage to improved public or private property.” Second, Parish personnel
were unaware of the requirements to submit all eligible expenses for each project, including those
covered by insurance. Third, the Parish had just hired its finance staff responsible for Hurricane
Katrina costs when hurricanes Gustav and Ike struck in 2008.

Nevertheless, the Parish should have had a financial and record keeping system in place that could
accurately track costs to prevent duplication of submitted costs. Federal regulations at 44 CFR
206.205(b) require that large project expenditures be accounted for on a project-by-project basis.
Further, FEMA’s Public Assistance Guide (FEMA 322, October 1999), Chapter 5, Project
Management, states that it is critical that the applicant establish and maintain accurate records of
events and expenditures related to disaster recovery work and that the importance of maintaining a
complete and accurate set of records for each project cannot be overemphasized.

In addition, the Parish did not submit documentation for incurred costs to GOHSEP on seven large
projects. The eligible costs on these projects totaled $1.9 million, which FEMA reduced by
$1.4 million for anticipated insurance proceeds, resulting in $521,397 ($1.9 million less $1.4 million)
of obligated costs. Because Parish officials did not realize that they must submit all eligible
expenses, including those reduced by insurance proceeds, the Parish did not submit these costs.
Further, because the Parish did not account for the funds on a project-by-project basis, it did not
realize that it had not been reimbursed for all $521,397 in eligible costs. We discussed this with
Parish officials, and they submitted costs of $227,605 for two of these projects in August 2011.




                                                    3

However, as of our audit cutoff date, the Parish had not submitted costs to support the total
$1.9 million of eligible costs before insurance reductions.

Because the Parish could not provide a complete and reliable accounting of its costs, we question
$8,608,509 as unsupported. This amount includes $453,279 that we also questioned as ineligible in
other findings ($357,395 under finding B, $51,758 under finding D, $28,474 under finding E, and
$15,652 under finding F). Therefore, the net amount of total questioned costs for this finding is
$8,155,230. In addition, FEMA should review all scopes of work and deobligate those projects with
duplicate scopes of work. Although Parish officials agreed there are discrepancies, they requested
additional time to review their documentation before commenting. They also agreed to work with
GOHSEP to ensure that they have a complete and accurate accounting of costs for all projects.

Finding B: Duplicate Costs

The Parish claimed costs that included at least $357,395 of duplicate contractor invoices. The Parish
submitted invoices totaling $330,787 to support part of the costs for Project 23. The Parish then
submitted these same invoices to support costs for 5 other projects included in the 25 projects we
reviewed for duplicate costs. The Parish also submitted invoices totaling $26,608 twice to support
part of the costs for Project 23. Therefore, we question $357,395 as duplicate claimed costs. Parish
officials agreed with this finding, stating that they are working to resolve these duplicate costs. They
agreed to work with GOHSEP to ensure that their claimed costs are accurate.

Finding C: Eligibility

The Parish claimed $308,712 under Project 118 that was not eligible under the PA grant program. In
addition, the Parish was not the correct applicant. FEMA wrote the project for crisis counseling
provided by the St. Charles Community Health Center (Center) based on information the Parish
provided. According to an agreement between the Parish and the Center, the Center was to “act as
an evacuee center, and to perform emergency medical care.” However, the Center did not house
evacuees. Further, FEMA funds crisis counseling for disaster victims who are not in shelters under
its Crisis Counseling Program—a separate grant program. Consequently, the costs the Parish
claimed for crisis counseling are not eligible under the PA subgrant awarded to the Parish, and the
Parish was not the correct applicant for this type of costs. Therefore, we question $308,712 as
ineligible. However, the Center, a private nonprofit entity, may apply for reimbursement of these
costs under FEMA’s Crisis Counseling Program. FEMA and Parish officials agreed with this
finding. The current Parish staff is uncertain as to why the Parish was named as the applicant. They
believe that previous Parish staff thought the Parish was responsible for this work.

Finding D: Incomplete Projects

The Parish did not complete the scopes of work on six projects, totaling $51,758. These projects
included repairs to roads and purchases of a generator and basketball hoops. The Parish did not
complete the replacement of the basketball hoops because the support poles were cut down to
provide room for temporary housing and were never replaced. Parish officials were unsure as to




                                                   4

why they did not purchase the generator or complete the road repairs, but believe that new personnel
in the Parish’s public works and finance departments were unaware of these projects.

Federal regulations at 44 CFR 206.204(c) and (d) place time restrictions on project completion and
set requirements for subgrantees to request extensions for project completion. For Category E
(permanent work), the project completion deadline is 18 months after the declaration. However,
extensions provided 24 additional months (February 2009). The Parish did not complete the projects
within the extended deadline and, 2 years after the last extension expired, had not requested
additional project extensions. In addition, federal regulations at 44 CFR 206.205(a) state that failure
to complete a small project may require the repayment of federal funds. Therefore, we question
$51,758 as ineligible costs because the Parish did not complete the projects’ scopes of work and did
not request time extensions. Parish officials agreed with this finding.

Finding E: Insurance

The Parish received $1,439,833 in insurance proceeds for property damages. However, FEMA
allocated only $1,411,359 in anticipated insurance proceeds to the Parish’s projects. Federal
regulations at 44 CFR 206.253(a) require that eligible costs be reduced by the actual amount of
insurance proceeds relating to the eligible costs. Therefore, FEMA should complete its insurance
review, allocate the remaining $28,474 in applicable insurance proceeds to the Parish’s projects, and
disallow those costs as ineligible. Parish officials agreed with this finding.

Finding F: Project Scope of Work

The Parish claimed $15,652 under Project 23 for work that was outside the scope of the project. The
scope of work for Project 23 stated, in part, “extensive response actions to avoid and/or alleviate
immediate threats to the life, health and/or safety of the general public as well as to avoid and/or
alleviate hazards threatening significant damage to improved public or private property.” However,
claimed costs for Project 23 included (1) $14,028 for materials for clothing, furniture, electronics,
and vehicle accessory purchases; and (2) $1,624 for general office supplies.

According to Public Assistance Policy Digest (FEMA 321, p. 75), funds for costs that are outside the
FEMA-approved scope of work are not eligible. Therefore, we question $15,652 of costs for work
that was outside the scope of Project 23. Parish officials acknowledged that they mistakenly
submitted these items under Project 23 and agreed to work with GOHSEP to submit them under the
correct project if eligible.

Finding G: Contracting

Although the Parish generally followed federal procurement standards for contracting, it did not
comply with three procurement standards required by federal regulations. First, the Parish did not
include in its contracts the provisions required by 44 CFR 13.36(i). These provisions document the
rights and responsibilities of the parties and minimize the risk of misinterpretations and disputes.




                                                  5

Second, the Parish did not perform a cost or price analysis on the majority of contracts. Federal
regulations at 44 CFR 13.36(f)(1) require subgrantees to perform a cost or price analysis on all
procurements. Performing a cost or price analysis decreases the likelihood of unreasonably high or
low prices, contractor misinterpretations, and errors in pricing relative to the scope of work.

Third, the Parish did not take sufficient steps to ensure the use of small businesses, minority-owned
firms, women’s business enterprises, and labor surplus area firms. Federal regulations require
subgrantees to take all necessary affirmative steps to ensure that they use these businesses when
possible (44 CFR 13.36(e)). Although the Parish did not take the specific affirmative steps listed in
the regulations, it did award five of its contracts to small or disadvantaged businesses (5 contracts
totaling $1.3 million out of 11 contracts totaling $6.7 million reviewed). Therefore, we did not
question any costs related to contracting because the Parish otherwise properly procured its disaster-
related contracts and because the Parish did award a portion of its contracts to small or disadvantaged
businesses. However, for future federally funded disaster contracts, the Parish should take steps to
ensure that it complies with all federal procurement standards. Parish officials stated that they were
not aware of this requirement. However, they agreed to follow the regulations in future events.


                                           RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region VI:

        Recommendation #1: Disallow $8,155,230 of unsupported costs unless the Parish can
        provide a complete and accurate accounting of total eligible costs for all projects
        (finding A).3

        Recommendation #2: Review the scopes of work for all the Parish’s projects and
        deobligate those projects with duplicate scopes of work (finding A).

        Recommendation #3: Disallow $357,395 of duplicate claimed cost as ineligible (finding B).

        Recommendation #4: Disallow $308,712 of ineligible costs because crisis counseling is not
        eligible under the PA grant program (finding C).

        Recommendation #5: Disallow $51,758 of ineligible costs for work the Parish did not
        complete (finding D).

        Recommendation #6: Complete the insurance review and allocate approximately $28,474
        of insurance proceeds to the total cost of the Parish’s projects. Because some of the costs are
        funded from another source, they are ineligible (finding E).


3
  This amount is $8,608,509 less $453,279 questioned in other findings (see Exhibit A, Audited and Questioned Costs,
and Exhibit B, Costs Questioned Under Multiple Criteria).




                                                          6

       Recommendation #7: Disallow $15,652 of ineligible costs for work that was outside the
       scope of the project (finding F).

       Recommendation #8: Direct GOHSEP to instruct the Parish to establish the necessary
       affirmative steps to ensure the use of small business, minority-owned firms, women’s
       business enterprises, and labor surplus area firms; to perform cost or price analyses; and to
       include federally required contract provisions in its contracts (finding G).


              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with Parish officials during our audit and included their
comments in this report, as appropriate. We also provided a draft report in advance to FEMA,
GOHSEP, and Parish officials and discussed it at exit conferences held with FEMA on
December 22, 2011, and with GOHSEP and Parish officials on December 19, 2011. FEMA officials
generally agreed with our findings and recommendations. GOHSEP withheld comments. The
Parish generally agreed with our findings.

Within 90 days of the date of this memorandum, please provide our office with a written response
that includes your (1) agreement or disagreement, (2) corrective action plan, and (3) target
completion date for each recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the current status of the recommendation.
Until your response is received and evaluated, the recommendations will be considered open and
unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of our
report to appropriate congressional committees with oversight and appropriation responsibility over
the Department of Homeland Security. To promote transparency, this report will be posted to our
website, with the exception of sensitive information identified by your office. Significant
contributors to this report were Tonda Hadley, Paige Hamrick, James Mitchell, and Rebecca Hetzler.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Tonda Hadley, at (214) 436-5200


cc:    	Administrator, FEMA
       Audit Liaison, FEMA Louisiana Recovery Office
       Audit Liaison, FEMA Region VI
       Audit Liaison, FEMA (Job Code G-11-044)
       Audit Liaison, DHS




                                                  7

                                                                                               EXHIBIT A





                                 Audited and Questioned Costs 

                                August 29, 2005, to June 23, 2011 

                                  St Charles Parish, Louisiana 

                              FEMA Disaster Number 1603-DR-LA 


  Project    Net Award         Finding      Finding         Finding      Finding    Finding    Total Costs
 Number        Amount             A            B               C            D          F       Questioned
    23        $7,200,000       $7,200,000   $357,395         $       0   $      0    $15,652    $7,573,047
    118          308,712                0          0           308,712          0          0       308,712
   1318          321,415          321,415          0                 0          0          0       321,415
   4235           49,477           49,477          0                 0     31,374          0         80,851
   5135          105,862          105,862          0                 0          0          0       105,862
   5141           66,237           66,237          0                 0      8,900          0         75,137
   6059           48,756           48,756          0                 0          0          0         48,756
   6834           52,991           52,991          0                 0          0          0         52,991
   6985           27,882           27,882          0                 0          0          0         27,882
   16020          44,716           44,716          0                 0      6,493          0         51,209
   17288          55,909           55,909          0                 0          0          0         55,909
   17289          56,549           56,549          0                 0          0          0         56,549
Subtotals     $8,338,506      $ 8,029,794   $357,395         $308,712     $46,767    $15,652    $8,758,320
Limited
Review        $ 578,715        $ 578,715    $      0        $      0     $ 4,991    $     0     $ 583,706
Subtotal      $8,917,221       $8,608,509   $357,395        $308,712     $51,758    $15,652     $9,342,026
Insurance To Be Allocated (finding E)                                                           $ 28,474
Subtotal      $8,917,221       $8,608,509   $357,395         $308,712     $51,758   $15,652     $9,370,500
Less Costs Questioned
Twice (from exhibit B)         $(453,279)                                                       $(453,279)
Grand
Totals        $8,917,221       $8,155,230   $357,395         $308,712     $51,758   $15,652     $8,917,221
Total Questioned Costs Recommended for Disallowance                                             $8,917,221




                                                       8

                                                                                                        EXHIBIT B




                                  Costs Questioned Under Multiple Criteria

                                      August 29, 2005, to June 23, 2011 

                                        St. Charles Parish, Louisiana 

                                   FEMA Disaster Number 1603-DR-LA 


                                                         Costs
                                     Gross Costs       Questioned                     Net Costs
                      Project       Questioned in      More than        Finding      Questioned in
                     Number          Finding A           Once4         Reference      Finding A
                        23             $7,200,000        $373,047         B, F         $6,826,953
                       4235                49,477           31,374         D                18,103
                       5141                66,237            8,900         D                57,337
                       7498                 8,509              889         D                 7,620
                      16020                44,716            6,493         D                38,223
                       16021               10,890            1,223         D                 9,667
                       16049               17,973            2,879         D                15,094
                   All Other
                   Projects             $1,210,707        $        0                     $1,210,707
                   Insurance To
                   Be Allocated                            $ 28,474         E            $ (28,474)
                   Totals               $8,608,509         $453,279                      $8,155,230




4
  As shown in this exhibit, we question $8,608,509 in Finding A that includes $453,279 also questioned in other findings
for different reasons. This amount consists of $357,395 questioned in finding B, $51,758 questioned in finding D,
$28,474 questioned in finding E, and $15,652 questioned in finding F. To avoid duplicate questioned costs, we
recommend that FEMA disallow $8,155,230 (Recommendation 1) for finding A, which is net of the costs we question
again in findings B, D, E and F. Therefore, if FEMA does not disallow these costs for Findings B, D, E, and F, it should
add them back to the amount recommended for disallowance in finding A.




                                                           9

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
